  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



MEDICARE IMPROPERLY PAID PROVIDERS
     MILLIONS OF DOLLARS FOR
     ENTITLEMENT-TERMINATED
   BENEFICIARIES WHO RECEIVED
         SERVICES DURING
        2010 THROUGH 2012



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2014
                                                        A-07-13-01127
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  Medicare made improper payments totaling $18.4 million for beneficiaries who received
  medical services during calendar years 2010 through 2012 whose entitlement to Medicare
  had been terminated.

WHY WE DID THIS REVIEW

Medicare fee-for-service benefits are allowable for beneficiaries who meet the entitlement or
eligibility requirements of the Medicare program. But when beneficiaries no longer meet these
requirements, their entitlement to Medicare is terminated. We refer to these individuals as
entitlement-terminated beneficiaries. Accordingly, any payments that Medicare makes to
providers on behalf of entitlement-terminated beneficiaries are improper. We are conducting a
series of reviews examining the Centers for Medicare & Medicaid Services’ (CMS) controls to
prevent and detect improper payments. We previously reported that CMS’s controls did not
detect improper Medicare payments for beneficiaries who were not lawfully present in the
United States ($91.6 million) or for beneficiaries who were incarcerated ($33.6 million).

The objective of our audit was to determine whether CMS had adequate controls to prevent and
detect improper payments for Medicare services rendered to entitlement-terminated
beneficiaries.

BACKGROUND

Medicare provides health insurance for people aged 65 and over, people with disabilities, and
people with kidney disease. CMS, which administers the program, contracts with Medicare
contractors to process and pay Medicare Parts A and B claims submitted by health care
providers.

Under Federal requirements, Medicare does not pay for health care services rendered to
entitlement-terminated beneficiaries. The Social Security Administration (SSA) is CMS’s
primary source of information about these beneficiaries. SSA identifies these beneficiaries and
transmits these data to CMS. With this information, CMS determines the periods for which
Medicare will not pay for services provided to these individuals.

Using CMS’s data systems, we identified 2,192,486 beneficiaries whose entitlement to Medicare
had been classified as terminated at some point during calendar years (CYs) 2010 through 2012.
The most common reason that beneficiaries lost their entitlement was because they no longer had
the disability that had initially qualified them for Medicare. We reviewed 59,962 claims and
$18,374,440 in associated Medicare payments on behalf of 7,426 beneficiaries whose
entitlements to Medicare were terminated before services were rendered.




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   i
WHAT WE FOUND

When CMS’s data systems indicated at the time that a claim was processed that a beneficiary’s
entitlement to Medicare had been terminated, CMS’s controls were adequate to prevent payment
for Medicare services. Specifically, CMS had a prepayment edit that flagged claims so that
Medicare contractors could deny payments to providers for entitlement-terminated beneficiaries.

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary’s entitlement to Medicare had been terminated, CMS’s controls were not adequate to
detect and recoup the improper payment. Because CMS did not always receive information
relating to entitlement-terminated beneficiaries in a timely manner, Medicare payments totaling
$18,374,440 were made to providers for services rendered to 7,426 such beneficiaries during
CYs 2010 through 2012. CMS did not have policies and procedures to review information for
these beneficiaries on a postpayment basis that would have detected improper payments that the
prepayment edit could not prevent. Consequently, CMS did not notify the Medicare contractors
to recoup any of the $18,374,440 in improper payments.

RECOMMENDATIONS

We recommend that CMS:

       ensure that Medicare contractors recoup the $18,374,440 in improper payments,

       implement policies and procedures to detect and recoup improper payments made for
        Medicare services rendered to entitlement-terminated beneficiaries in cases when
        entitlement termination information is received on previously paid Medicare claims, and

       identify improper payments made on behalf of entitlement-terminated beneficiaries after
        our audit period but before implementation of policies and procedures and ensure that
        Medicare contractors recoup those improper payments.

                           CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS did not concur with our recommendations. CMS
stated that according to Federal requirements, recovery of overpayments must be waived if the
provider was without fault in causing the overpayment.

Nothing in CMS’s comments caused us to change our findings or our recommendations. CMS
comments notwithstanding, our recommendations are not limited to recouping improper
payments from providers. Federal requirements state that when a provider is without fault, the
beneficiary becomes liable for the overpayment. CMS has provided specific guidance to
Medicare contractors on recouping overpayments from entitlement-terminated beneficiaries.




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 The Medicare Program ..................................................................................1
                 Reasons for Termination of Beneficiary Entitlement to Medicare ................2
                 Obtaining Information on Entitlement-Terminated Beneficiaries .................2

           How We Conducted This Review..............................................................................3

FINDINGS .............................................................................................................................3

           When CMS Received Information Related to Terminated
             Entitlement Before Claims Were Processed, It Had Controls
             To Prevent Improper Payments ...........................................................................3

           When CMS Received Information Related to Terminated
             Entitlement After Claims Were Processed, It Did Not Have Controls
             To Detect and Recoup Improper Payments ..........................................................4
                 Federal Requirements ....................................................................................4
                 Improper Payments Not Detected ..................................................................4
                 CMS Did Not Have Policies and Procedures To Detect and
                    Recoup Improper Payments on a Postpayment Basis ...............................5
                 Improper Payments on Behalf of Entitlement-Terminated
                    Beneficiaries Remain Uncollected ............................................................5

RECOMMENDATIONS .......................................................................................................6

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .................6

APPENDIX

           A: Audit Scope and Methodology ............................................................................8

           B: CMS Comments ...................................................................................................9




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)                                           iii
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

Medicare fee-for-service benefits are allowable for beneficiaries who meet the entitlement or
eligibility requirements of the Medicare program. But when beneficiaries no longer meet these
requirements, their entitlement to Medicare is terminated.1 We refer to these individuals as
entitlement-terminated beneficiaries. Accordingly, any payments that Medicare makes to
providers on behalf of entitlement-terminated beneficiaries are improper. We are conducting a
series of reviews examining the Centers for Medicare & Medicaid Services’ (CMS) controls to
prevent and detect improper payments. We previously reported that CMS’s controls did not
detect improper Medicare payments for beneficiaries who were not lawfully present in the
United States ($91.6 million) or for beneficiaries who were incarcerated ($33.6 million).2

OBJECTIVE

Our objective was to determine whether CMS had adequate controls to prevent and detect
improper payments for Medicare services rendered to entitlement-terminated beneficiaries.

BACKGROUND

The Medicare Program

Medicare provides health insurance for people aged 65 and over, people with disabilities, and
people with kidney disease.3 Medicare Part A provides inpatient hospital insurance benefits and
coverage of extended care services for patients after hospital discharge. Medicare Part B
provides supplementary medical insurance for medical and other health services, including
coverage of hospital outpatient services.

CMS, which administers Medicare, contracts with Medicare contractors to, among other things,
process and pay claims submitted by hospitals, physicians, and suppliers. For this report, we
refer to all Medicare Part A and Part B entities or individuals receiving Medicare payments as
“providers.”




1
 For this report, we refer to entitlement, or loss of entitlement, to Medicare Part A or Part B benefits in particular
and Medicare fee-for-service benefits (Medicare benefits) in general. We do not distinguish, in the language we use,
among loss of entitlement, loss of eligibility, and disenrollment.
2
 Medicare Improperly Paid Providers Millions of Dollars for Unlawfully Present Beneficiaries Who Received
Services During 2009 Through 2011 (A-07-12-01116, issued January 23, 2013) and Medicare Improperly Paid
Providers Millions of Dollars for Incarcerated Beneficiaries Who Received Services During 2009 Through 2011
(A-07-12-01113, issued January 23, 2013).
3
    Title XVIII of the Social Security Act (the Act).



Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)                  1
Reasons for Termination of Beneficiary Entitlement to Medicare

The Act sets forth requirements for entitlement to Medicare benefits.4 The Social Security
Administration (SSA) determines individuals’ entitlement to Medicare benefits on the basis of
these requirements.5 Medicare benefits are allowable for beneficiaries who meet these
entitlement requirements. When beneficiaries no longer meet these requirements, SSA
terminates their entitlements. Specifically, SSA terminates entitlement to Medicare benefits for
beneficiaries who:

          no longer have a qualifying disability,

          voluntarily withdraw from coverage,

          no longer meet the provisions for benefits involving the treatment of kidney disease,

          do not pay their premiums for either Medicare Part A or Part B,6

          lose Social Security benefits under certain conditions,7 or

          have their Part B enrollment voided or invalidated.

Thus, Medicare does not pay for services rendered to beneficiaries whose entitlements to
Medicare were terminated before services were rendered.

Obtaining Information on Entitlement-Terminated Beneficiaries

SSA is CMS’s primary source of information for identifying entitlement-terminated
beneficiaries.8 SSA identifies these beneficiaries and transmits these data to CMS. With this
information, CMS determines the periods for which Medicare will not pay for health care
services rendered to these individuals.

CMS’s Enrollment Database interfaces with SSA’s data systems to identify the entitlement-
terminated beneficiaries. CMS officials told us that this information is generally transmitted
daily from SSA to CMS’s data systems. The information on terminated entitlement is then


4
 Sections 226(a), 226(b), 226A, 1818, and 1818A of the Act establish requirements for Part A. Section 1836 of the
Act establishes requirements for Part B.
5
    Section HI 00208.015 of SSA’s Program Operations Manual System.
6
    Under certain conditions, beneficiaries pay Medicare Part A premiums.
7
 Under certain conditions, the termination of SSA Title II benefits can result in terminated entitlement to Medicare
Part A and, usually in those cases, Part B benefits.
8
    The Railroad Retirement Board (RRB) also provides entitlement termination information to CMS.



Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)                     2
accessible by several applications, including CMS’s Common Working File (CWF). Medicare
contractors use the CWF to process Part A and Part B claims from providers.

Using CMS’s data systems, we identified 2,192,486 beneficiaries whose entitlement to Medicare
had been classified as terminated at some point during calendar years (CYs) 2010 through 2012.

HOW WE CONDUCTED THIS REVIEW

Medicare contractors made payments totaling $18,374,440 to providers for 59,962 claims for
services rendered to 7,426 entitlement-terminated beneficiaries during CYs 2010 through 2012.
We reviewed the Medicare Part A and Part B claims associated with these payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                              FINDINGS

When CMS’s data systems indicated at the time that a claim was processed that a beneficiary’s
entitlement to Medicare had been terminated, CMS’s controls were adequate to prevent payment
for Medicare services. Specifically, CMS had a prepayment edit that flagged claims so that
Medicare contractors could deny payments to providers for entitlement-terminated beneficiaries.

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary’s entitlement to Medicare had been terminated, CMS’s controls were not adequate to
detect and recoup the improper payment. Because CMS did not always receive information
relating to entitlement-terminated beneficiaries in a timely manner, Medicare payments totaling
$18,374,440 were made to providers for services rendered to 7,426 such beneficiaries during
CYs 2010 through 2012. CMS did not have policies and procedures to review information for
these beneficiaries on a postpayment basis that would have detected improper payments that the
prepayment edit could not prevent. Consequently, CMS did not notify the Medicare contractors
to recoup any of the $18,374,440 in improper payments.

WHEN CMS RECEIVED INFORMATION RELATED TO TERMINATED
ENTITLEMENT BEFORE CLAIMS WERE PROCESSED, IT HAD CONTROLS TO
PREVENT IMPROPER PAYMENTS

When CMS’s data systems indicated at the time that a claim was processed that a beneficiary’s
entitlement to Medicare had been terminated, CMS had a prepayment edit that prevented
payment for Medicare services rendered to the beneficiary. This prepayment edit flagged claims
so that Medicare contractors could deny payments to providers for entitlement-terminated
beneficiaries.



Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   3
WHEN CMS RECEIVED INFORMATION RELATED TO TERMINATED
ENTITLEMENT AFTER CLAIMS WERE PROCESSED, IT DID NOT HAVE
CONTROLS TO DETECT AND RECOUP IMPROPER PAYMENTS

Federal Requirements

According to the Act, Medicare does not pay for services rendered to a beneficiary whose
entitlement to Medicare was terminated before services were rendered. CMS’s Medicare
Financial Management Manual (the Manual),9 provides guidance to Medicare contractors for
collecting Part A payments for a beneficiary whose entitlement to Part A has been terminated.
The Manual also provides guidance for collecting Part B payments for a beneficiary whose
entitlement to Part B has been terminated.

The Presidential memorandum Finding and Recapturing Improper Payments10 directs Federal
agencies, including CMS, to use every tool available to identify and reclaim the funds associated
with improper payments that the Federal Government has made. The memorandum notes that
reclaiming these funds is a critical component of the proper stewardship and protection of
taxpayer dollars. In addition, Federal guidelines direct Federal agencies to take all necessary
steps to prevent, detect, and collect improper payments.11

Improper Payments Not Detected

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary’s entitlement to Medicare had been terminated, CMS’s controls were not adequate to
detect and recoup the improper payment.

CMS received information on dates of terminated entitlement after the date on which entitlement
to Medicare was terminated. (In one instance, CMS did not receive this information until 1 year
after the beneficiary’s entitlement to Medicare had been terminated.) As a result, Medicare
contractors received and processed claims from providers before CMS received notification of
the beneficiaries’ terminated entitlement. Contractors incorrectly but unknowingly paid
providers for services rendered to these beneficiaries. As a result, Medicare payments totaling
$18,374,440 were improperly made to providers for services rendered to 7,426 beneficiaries
whose entitlements to Medicare had been classified as terminated at some point during CYs 2010
through 2012.12



9
    The Manual, chapter 3, § 110.6.D.
10
     75 Fed. Reg. 12119 (Mar. 15, 2010).
11
  Office of Management and Budget Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments part I, section A.15.
12
  The $18,374,440 includes improper payments for Medicare Parts A and B. The amounts for Part A were
identified only for those beneficiaries whose entitlements to Part A had been terminated. Likewise, the amounts for
Part B were identified only for those beneficiaries whose entitlements to Part B had been terminated.


Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)                4
CMS did not always receive timely updates regarding information on entitlement-terminated
beneficiaries before Medicare contractors paid providers. When CMS received untimely
information indicating that the beneficiaries had lost their entitlements before the dates of service
on previously paid Medicare claims, CMS did not notify contractors of this updated information.
In the absence of such notification, the contractors did not detect and recoup the improper
payments.

We judgmentally selected 895 claims and compared the dates on which CMS’s data systems
were updated with termination information from SSA to the dates on which Medicare contractors
paid providers. For each of the 895 claims, we determined that CMS received the information
from SSA after the contractors had paid the claims.

A Medicare contractor confirmed to us that CMS had not notified it of the beneficiaries’ loss of
entitlement for this type of claim and explained that it made the payments because the
information in CMS’s data systems at the time of payment indicated that the beneficiaries were
entitled to Medicare benefits. After analyzing information from us, the contractor stated that
claims of this type were not allowable for Medicare payment. The contractor stated that it would
have canceled these claims and recouped the payments if CMS had notified it of the terminated
entitlements.

CMS Did Not Have Policies and Procedures To Detect and
Recoup Improper Payments on a Postpayment Basis

The improper payments remained uncollected because CMS did not have policies and
procedures to review information for entitlement-terminated beneficiaries on a postpayment
basis to detect improper payments that the prepayment edit could not prevent.

Because CMS has instructed its Medicare contractors to rely on the information that CMS
receives from SSA to prevent improper payments and because this information must be present
for the prepayment edit to be effective, using the same information to notify contractors of
terminated entitlements after claims have been paid is a reasonable extension of CMS’s efforts.
Once notified, the contractors could then detect and recoup improper payments.

Improper Payments on Behalf of Entitlement-Terminated
Beneficiaries Remain Uncollected

Because CMS did not have policies and procedures to detect improper payments, it did not notify
the Medicare contractors to recoup the improper payments. Thus, $18,374,440 in improper
payments for CYs 2010 through 2012 remained uncollected.




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   5
                      Table: Improper Payments That Remained Uncollected

   Reasons for Termination of Beneficiary                 Medicare        Medicare          Total
            Entitlement to Medicare                        Part A          Part B         Payments
No longer had a qualifying disability                     $4,845,639      $3,207,030      $8,052,669
Voluntarily withdrew from coverage                           157,911       3,218,518       3,376,429
No longer met provisions for kidney disease                2,510,418         864,682       3,375,100
Did not pay Medicare Part A or Part B premiums               862,808       1,351,861       2,214,669
Lost Social Security benefits                                930,359               0         930,359
Part B enrollment voided or invalidated                            0         425,214         425,214
 Total                                                    $9,307,135      $9,067,305     $18,374,440

                                      RECOMMENDATIONS

We recommend that CMS:

       ensure that Medicare contractors recoup the $18,374,440 in improper payments,

       implement policies and procedures to detect and recoup improper payments made for
        Medicare services rendered to entitlement-terminated beneficiaries in cases when
        entitlement termination information is received on previously paid Medicare claims, and

       identify improper payments made on behalf of entitlement-terminated beneficiaries after
        our audit period but before implementation of policies and procedures and ensure that
        Medicare contractors recoup those improper payments.

        CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS did not concur with our recommendations. CMS
stated that according to section 1870 of the Act and 42 CFR § 405.350, “… CMS must waive
recovery of overpayments if the provider/supplier was ‘without fault’ in causing the
overpayment.” In addition, CMS said our report did “… not provide any evidence that the
provider/supplier knew (or could have reasonably determined) that entitlement was terminated
on or before the date of service at issue.…”

CMS’s comments appear in their entirety as Appendix B.

Nothing in CMS’s comments caused us to change our findings or our recommendations. CMS
comments notwithstanding, our recommendations are not limited to recouping improper
payments from providers. The Manual states: “… if the [Medicare contractor] determines that
an overpaid provider or physician was without fault and therefore not liable for the overpayment,
it relieves the provider of liability for the overpayment. The beneficiary automatically becomes
liable, whether or not the beneficiary was at fault” (chapter 3, § 70). In addition, the Manual
provides specific guidance to Medicare contractors on recouping overpayments from
entitlement-terminated beneficiaries (chapter 3, § 110.6.D).



Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)     6
Therefore, we continue to recommend that CMS instruct the Medicare contractors to initiate
recoupment on the improper payments identified in our report and implement policies and
procedures to prevent future improper payments. In recouping overpayments, contractors should
assess the “without fault” provision and recoup the overpayments accordingly.




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The audit scope covered 59,962 claims for which CMS’s data systems indicated that Medicare
contractors made $18,374,440 in payments to providers on behalf of 7,426 beneficiaries who
received services after their Medicare entitlements had been classified as terminated during CYs
2010 through 2012. We did not review CMS’s overall internal control structure because our
objective did not require us to do so. We reviewed only the internal controls directly related to
our objective.

We performed audit work from February through August 2013.

METHODOLOGY

To accomplish our objective, we performed the following steps:

       We reviewed applicable Federal laws, regulations, and guidance.

       We held discussions with CMS officials and Medicare contractors to gain an
        understanding of how they processed Medicare claims for entitlement-terminated
        beneficiaries.

       We used CMS’s Enrollment Database (as of February 23, 2013) to identify 2,192,486
        beneficiaries whose entitlements to Medicare had been classified as terminated at some
        point during CYs 2010 through 2012. Our comparison to CMS’s National Claims
        History file (as of December 31, 2012) showed that Medicare contractors paid 59,962
        claims (on behalf of 7,426 beneficiaries with $18,374,440 is associated payments) for
        which the services were rendered after the beneficiaries’ Medicare entitlements were
        terminated. The amounts for Medicare Part A were identified only for those beneficiaries
        whose entitlement to Part A had been terminated. Likewise, the amounts for Medicare
        Part B were identified only for those beneficiaries whose entitlement to Part B had been
        terminated.

       We judgmentally selected 895 claims and, for those claims, compared the dates on which
        CMS’s data systems were updated with termination information from SSA to the dates on
        which Medicare contractors paid providers.

       We discussed the results of our review with CMS officials on October 31, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127)   8
                                   APPENDIX B: CMS COMMENTS 



    . . ,f.. " 	
  (~"'·4       DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers lor Medicare & Medicaid Services



   '···-~                                                                               Administrator
                                                                                        Washington, DC 20201




              DATE:
                              JAN -8 2014

              TO: 	         Daniel R. Levinson
                            Inspector General

              FROM:


              SUBJECT: 	 Office of Inspector General (010) Draft Report: Medicare Improperly Paid
                         Providers Millions of Dollars for Entitlement- Terminated Beneficiaries Who
                         Received Services during 2010 through 2012 (A-07-13-01127)


              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
              comment on the above subject OIG Draft Report. The objective of this audit was to determine
              whether CMS had adequate controls to prevent and detect improper payments for Medicare
              services rendered to entitlement-terminated beneficiaries. OIG ' s recommendations and the CMS
              responses to those recommendations are discussed below.

              OIG Recommendation

              The 010 recommends that CMS ensure that Medicare contractors recoup $18,374,440 in
              improper payments.

              CMS Response

              The CMS non-concurs with the recommendation. Pursuant to section 1870 of the Social
              Security Act and 42 CFR section 405.350, CMS must waive recovery of overpayments if the
              provider/supplier was " without fault" in causing the overpayment. OIG' s report stated that CMS
              data systems did not indicate, until after the claims were processed, that a beneficiary' s
              entitlement to Medicare had been terminated, because CMS did not always receive timely
              updates regarding entitlement-terminated beneficiaries from the Social Security Administration.
              OIG's report does not provide any evidence that the provider/supplier knew (or could have
              reasonably determined) that entitlement was terminated on or before the date of service at issue
              or was "not without fault" for some other reason with respect to these overpayments. Without
              this information, CMS is precluded from collecting these overpayments. We also note that
              Medicare is terminated retroactively in some instances, a situation in which the provider/supplier
              would clearly be "without fault" with respect to the overpayment. The report contains no




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127}                                 9
              Page 2 - Daniel R. Levinson


              information on whether, or to what extent, the identified overpayments were the result of
              retroacti ve termination actions.

              OIG Recommendation

              The OIG recommends that CMS implement policies and procedures to detect and recoup
              improper payments made for Medicare services rendered to entitlement-terminated beneficiaries
              in cases when entitlement termination information is received on previously paid Medicare
              claims .

              CMS Response

              The CMS non-concurs with the recommendation under the same rationale presented in the
              response to recommendation one.

              OIG Recommendation

              The OIG recommends that CMS identify improper payments made on behalfofentitlement­
              terminated beneficiaries after our audit period but before implementation of policies and
              procedures and ensure that Medicare contractors recoup those improper payments.

              CMS Response

              The CMS non-concurs with the recommendation under the same rationale presented in the
              response to recommendations one and two.

              The CMS thanks OIG for the work done on this issue and looks forward to working with OIG in
              the future.




Medicare Payments for Beneficiaries Whose Medicare Entitlement Had Been Terminated (A-07-13-01127}            10
